                     U.S. Department of Agriculture
                        Office of Inspector General
                                   Northeast Region




         Audit Report

     Food and Nutrition Service
     National School Lunch and
        Breakfast Programs
Attendance and Meal Count Analysis
Philadelphia School Food Authority
     Philadelphia, Pennsylvania




                           Report No. 27010-31-Hy
                                        June 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                            Northeast Region
                                              Suite 2-2230
                                   5601 Sunnyside Avenue, Stop 5300
                                     Beltsville, Maryland 20705-5300




DATE:          June 25, 2004

REPLY TO
ATTN OF:       27010-31-Hy

SUBJECT:       Food and Nutrition Service, National School Lunch and Breakfast Programs,
               Attendance and Meal Count Analysis, Philadelphia School Food Authority,
               Philadelphia, Pennsylvania

TO:            John Chandler
               Acting Regional Administrator
               Mid-Atlantic Region
               Food and Nutrition Service


This report presents the results of the subject audit. Your May 7, 2004, response to the draft report is
included as exhibit F with excerpts and the Office of Inspector General’s (OIG) position is
incorporated into the relevant sections of the report.

We agree with your management decisions for Recommendation Nos. 1, 3, 4, 9, 11, and 13.
Management decisions have not yet been reached for Recommendation Nos. 2, 5, 6, 7, 8, 10, and 12.
The Findings and Recommendations section of the report includes a description of the status of the
management decision for each recommendation. Please follow your agency’s internal procedures in
forwarding documentation for final action to the Office of the Chief Financial Officer (OCFO).

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective actions taken or planned and the timeframes for implementation for those
recommendations for which a management decision has not yet been reached. Please note that the
regulation requires a management decision to be reached on all recommendations within 6 months of
report issuance, and final action to be taken within 1 year of each management decision.
Correspondence concerning final actions should be addressed to the OCFO.


      //s//

REBECCA ANNE BATTS
Regional Inspector General
  for Audit

Attachment
Executive Summary
Food and Nutrition Service National School Lunch and Breakfast Programs
Attendance and Meal Count Analysis, Philadelphia School Food Authority,
Philadelphia, Pennsylvania (Audit Report No. 27010-31-Hy)

Results in Brief    This report presents the results of the Office of Inspector General’s (OIG)
                    review of the National School Lunch Program (NSLP) and School Breakfast
                    Program (SBP) attendance and meal count operations in the School District
                    of Philadelphia. Our objective was to determine whether the School District
                    of Philadelphia complied with Federal regulations for ensuring the accuracy
                    of meal counts prior to the submission of monthly claims for reimbursement.
                    The School District of Philadelphia serves as the local school food authority
                    (SFA) within the Commonwealth of Pennsylvania’s Department of
                    Education, which serves as the State agency (SA) funded by the U.S.
                    Department of Agriculture’s (USDA) Food and Nutrition Service (FNS).
                    During school year (SY) 1999/2000, the SFA claimed over 29 million NSLP
                    and SBP meals served and received reimbursement of over $45 million from
                    these programs. Our review was self-initiated.

                    Our review of the SFA’s NSLP and SBP attendance and meal count
                    operations during SY 1999/2000 found that SFA did not comply with Federal
                    regulations for ensuring the accuracy of meal counts prior to the submission
                    of monthly claims for reimbursement. Specifically, the SFA:

                    •   claimed 241,852 meals served in excess of students in attendance, and
                        claimed 147,954 meals in the incorrect reimbursement category;

                    •   claimed 109,778 more free and reduced-price meals than could be
                        supported by approved applications and direct certifications; and

                    •   did not effectively monitor each school’s meal counting and claiming
                        system to provide reasonable assurance that feeding sites submitted
                        accurate meal claims.

                    These conditions occurred, in part, because the SFA’s operating policies and
                    procedures did not comply with Federal regulations requiring specific
                    management controls and monitoring to ensure the accuracy of attendance
                    and meal count operations, and that students with pending applications be
                    considered eligible only for paid meals until eligibility for free or reduced-
                    price meals is determined. As a result, SFA received excess reimbursements
                    of $844,065 for claiming errors and meals claimed in excess of attendance.

                    In March 2003, the SFA indicated to us that it had taken corrective actions to
                    strengthen controls over its NSLP and SBP meal count operations. In an
                    effort to understand the corrective actions, we performed a review of the
USDA/OIG-Audit No. 27010-31-Hy                                                                   i
                                   SFA’s meal claims and its edit check1 for November 2002. Our review found
                                   that the SFA had revised its policy regarding eligibility determination to be in
                                   compliance with Federal regulations. The policy now requires that students
                                   with pending applications be considered eligible only for paid meals until
                                   determined eligible for free or reduced-price meals. Although SFA believes
                                   that it had taken appropriate action to correct other weaknesses described in
                                   our report, we found that those weaknesses still persist. Specifically, we
                                   found no evidence of improved supervisory review or other management
                                   controls to ensure that the edit check was performed correctly and that
                                   needed adjustments had been made. As a result, we found additional
                                   overclaims of $23,359 for November 2002 (see Exhibit A). In this regard,
                                   we continue to believe that our recommendations for ensuring the accuracy of
                                   SFA’s meal counts prior to the submission of the monthly claims for
                                   reimbursement should be implemented.

                                   In our exit conference held on March 4, 2004, SFA officials asserted that the
                                   information concerning attendance that was originally provided to the
                                   auditors for SY 1999/2000 was incorrect. We advised the SFA officials that
                                   we would consider additional or revised data, to the extent that the data could
                                   be corroborated. This report incorporates the changes made as a result of
                                   portions of revised data that we were able to verify. Some data provided was
                                   not corroborated and some conflicted with other information available to us.
                                   The SFA confirmed the accuracy of November 2002 attendance data
                                   previously provided.

Recommendations
In Brief                           We recommend, in summary, that FNS require the SA to direct the SFA to:

                                   •    develop and implement policies and procedures, in accordance with
                                        Federal regulations, for performing lunch and breakfast edit checks;

                                   •    develop and implement policies and procedures, in accordance with
                                        Federal regulations, requiring that students with pending applications be
                                        considered eligible only for paid meals until eligibility for free or
                                        reduced-price meals is determined; and

                                   •    strengthen the SFA’s onsite monitoring of each school’s meal counting
                                        and claiming system by developing and implementing more effective
                                        controls that address the weaknesses described in our report.

                                   In addition, we recommend that FNS recover excess reimbursement of
                                   $844,065 for the meals claimed in excess of attendance and in the incorrect
                                   claiming category. Further, we recommend that FNS recover excess

1
    The edit check, required under 7 CFR § 210.8 (a)(3), compares each school’s daily count of free, reduced-price, and paid meals against
    the product of the number of students in the school that are currently eligible for such meals, times an attendance factor.
USDA/OIG-Audit No. 27010-31-Hy                                                                                                          ii
                    reimbursements of $23,359 found in our review of the SFA’s meal claims
                    and edit check for November 2002.

FNS Response        FNS generally agreed with the findings and recommendations outlined in our
                    report. FNS’ comments did not consider the SFA’s response since the agency
                    received it too late, given the deadline for commenting on the draft audit
                    report. The FNS response incorporates the SA response and is included in its
                    entirety as Exhibit F to this report.

                    The FNS response cited a number of planned actions to improve the SFA’s
                    accountability over meal counting and claiming. The SA indicated plans for
                    performing Coordinated Review Effort (CRE) work in Philadelphia in
                    conjunction with FNS staff. Additionally, FNS will perform an expanded
                    review of the SFA’s edit check procedures.

                    In response to the recommendations for monetary recovery from the SFA,
                    FNS agreed that is appropriate to recover excess reimbursement. However,
                    the agency also recognized the merit of the SA’s suggestion to give the SFA
                    the option of investing the excess reimbursement in a school district-wide
                    computerized Point of Sale (POS) system. FNS stated that this could be a
                    long-term solution to the SFA’s accountability problems. FNS also stated
                    that the SFA’s performance post-POS system implementation should be
                    evaluated before a decision is made not to recover excess reimbursement.

OIG Position        In response to recommendations in this report, FNS and the SA recognized
                    the need for improved controls over the SFA’s meal counting and claiming
                    system. FNS’ response provides measures that it believes would ensure that
                    needed controls are implemented by the SFA; however, as identified in our
                    audit, the SFA did not implement corrective actions reported in past reviews
                    performed by FNS and the SA. FNS and SA followup is needed to ensure
                    full implementation of our recommendations related to the SFA.

                    Since our exit conference with the SFA on March 4, 2004, we considered
                    revised attendance information provided by the SFA. We incorporated the
                    information that could be corroborated into our draft report and made
                    necessary adjustments to the recommendations for recovery of excess
                    reimbursement.      In addition, we considered the SFA’s supplemental or
                    revised information received after the date of the FNS response in preparing
                    the final report. This data did not change our overall conclusions, in part
                    because it did not include necessary supporting documents.

                    The FNS response was adequate for management decision on
                    Recommendations No. 1, 3, 4, 9, 11, and 13. Details of the information
                    needed to reach management decision on the remaining recommendations are
                    included in the OIG Position section for each recommendation.


USDA/OIG-Audit No. 27010-31-Hy                                                               iii
Table of Contents
Executive Summary ................................................................................................................i
Background and Objective....................................................................................................1
Findings and Recommendations ..........................................................................................4
   Section 1. Required Management Controls Not In Place To Prevent Invalid Program
              Payments .........................................................................................................4
      Finding 1:         Controls Are Needed to Prevent Overclaims ...............................................4
         Recommendation No. 1.................................................................................................9
         Recommendation No. 2...............................................................................................10
         Recommendation No. 3...............................................................................................11
         Recommendation No. 4...............................................................................................11
         Recommendation No. 5...............................................................................................12
         Recommendation No. 6...............................................................................................13
         Recommendation No. 7...............................................................................................13
         Recommendation No. 8...............................................................................................14
      Finding 2:         Controls Are Needed to Limit Claims to Only Approved Applicants for Free
                         and Reduced-Price Meals .........................................................................15
         Recommendation No. 9...............................................................................................17
         Recommendation No. 10.............................................................................................17
         Recommendation No. 11.............................................................................................18
         Recommendation No. 12.............................................................................................18
      Finding 3:         The SFA’s Monitoring of Meal Counting and Claiming Systems Needs
                         Improvement..............................................................................................19
         Recommendation No. 13.............................................................................................22
Scope and Methodology......................................................................................................24
Exhibit A - Summary of Monetary Results .........................................................................27
Exhibit B - List of Schools, Feeding Sites, and Excess Claims .......................................28
Exhibit C - Meal Claim Errors Resulting in Excess Reimbursement ...............................38
Exhibit D - Summary of Meals Claimed in Excess of the Number of Approved
            Applications and Direct Certifications Shown on the Monthly Audit Check
            Forms .................................................................................................................39
Exhibit E - November 2002 List of Schools, Feeding Sites, and Excess Claims ............40

USDA/OIG-Audit No. 27010-31-Hy                                                                                                    iv
EXHIBIT E-1 - November 2002 Meal Claim Errors Resulting In Excess Reimbursement
          ............................................................................................................................44
Exhibit F - Food and Nutrition Service Response to the Draft Report.............................45




Abbreviations

CFR           Code of Federal Regulations
CRE           Coordinated Review Effort
FNS           Food and Nutrition Service
NSLP          National School Lunch Program
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
SA            State Agency
SBP           School Breakfast Program
SDOP          School District of Philadelphia
SFA           School Food Authority
SY            School Year
USDA          U.S. Department of Agriculture




USDA/OIG-Audit No. 27010-31-Hy                                                                                                        v
Background and Objective
Background          On June 4, 1946, Congress passed the National School Lunch Act (42 U.S.
                    Code 1751) that authorizes Federal school lunch assistance through the
                    National School Lunch Program (NSLP). The Child Nutrition Act of 1966,
                    authorizes payments to States to initiate, maintain, and expand nonprofit
                    breakfast programs in schools through the School Breakfast Program (SBP).
                    The purpose of these programs is to safeguard the health and well being of
                    the Nation’s children by providing them with nutritious foods and to
                    encourage the domestic consumption of agricultural commodities and other
                    foods. This is accomplished by assisting States, through grants-in-aid and
                    other means, in providing an adequate supply of food and facilities for the
                    establishment, maintenance, operation, and expansion of nonprofit school
                    lunch and breakfast programs.

                    Responsibilities for Administering NSLP and SBP

                    The Food and Nutrition Service (FNS) is the U.S. Department of Agriculture
                    (USDA) agency responsible for administering the NSLP and SBP. FNS is
                    headquartered in Alexandria, Virginia, and has seven regional offices
                    nationwide. The FNS Mid-Atlantic Regional Office, located in Robbinsville,
                    New Jersey, is responsible for monitoring and overseeing operations in
                    Pennsylvania. Within the Commonwealth of Pennsylvania, the Department
                    of Education serves as the State agency (SA) and is responsible for
                    overseeing NSLP and SBP operations in Philadelphia, Pennsylvania. Within
                    Philadelphia, the School District of Philadelphia’s Food Services Division
                    serves as the local school food authority (SFA) responsible for operating the
                    NSLP and SBP in accordance with Federal regulations. Each SA is required
                    to enter into written agreements with FNS to administer the programs and
                    with the local school districts to oversee day-to-day operations. The
                    Philadelphia SFA administered the NSLP and SBP in 262 schools using
                    306 separate feeding sites as of June 2000.

                    Federal Requirements

                    The general NSLP requirements are codified in Title 7, Code of Federal
                    Regulations (CFR) § 210. Requirements for determining eligibility for free
                    and reduced-price meals and free milk are codified in 7 CFR § 245 and
                    general SBP requirements are codified in 7 CFR § 220. Requirements for
                    internal controls at SFAs to ensure the accuracy of meal counts prior to the
                    submission of monthly claims for reimbursement to the SA are codified in
                    7 CFR § 210.8. These controls include onsite monitoring of each school’s:




USDA/OIG-Audit No. 27010-31-Hy                                                                 1
                    •   meal counting and claiming system;

                    •   comparison of the number of daily free, reduced-price, and paid meal
                        counts against data, which will help identify meal counts in excess of the
                        number of free, reduced-price and paid meals served each day to students
                        in attendance and eligible for such meals; and

                    •   system for following up on those meal counts, which suggest the
                        likelihood of lunch counting problems.

                    Alternative procedures, authorized by the Child Nutrition and Special
                    Supplemental and Nutrition Program for Women, Infants, and Children
                    Reauthorization Act of 1989 (Public Law 101-147), allow the Secretary of
                    Agriculture to reduce program paperwork by conducting pilot projects to test
                    alternatives to the requirements for annual application and daily meal
                    counting, by category.

                    FNS provides donated foods to SFAs to assist in operating the nonprofit
                    feeding programs in accordance with 7 CFR § 250.

                    Procedures for Determining Eligibility for Free or Reduced Meals

                    Eligibility determinations for free or reduced-price meals can be made under
                    traditional or alternative procedures. Under traditional procedures, schools
                    must collect applications on an annual basis from households of enrolled
                    students and make annual eligibility determinations for free or reduced-price
                    meals. These schools must also count the number of free, reduced-price, and
                    paid meals served at the point-of-service on a daily basis. In June 2000, the
                    SFA had 66 schools that operated 77 feeding sites under traditional
                    procedures, and 195 schools that operated 229 feeding sites under alternative
                    procedures. The SFA’s remaining two schools had mixed operations, i.e.,
                    one feeding site operated under traditional procedures and one site operated
                    under alternative procedures.

                    The SFA’s Procedures for Determining Eligibility: FNS approved the
                    Philadelphia SFA’s proposal to use a socio-economic study along with direct
                    certification procedures in FNS’ Eligibility Guidance for School Meals
                    Manual, dated August 1991, to establish the eligibility for students who
                    attend selected schools, rather than take annual applications. The study
                    statistically projected the percentage of students eligible for free, reduced-
                    price, and paid meals for each school involved in a pilot. The percentages are
                    referred to as “established claiming percentages.” The SFA applies each
                    school’s established claiming percentages to daily meal counts to determine
                    the number of free, reduced, and paid meals to claim. This change in
                    procedures provided cost savings to the SFA because it eliminated the work
                    involving applications, the application verification process, meal ticket

USDA/OIG-Audit No. 27010-31-Hy                                                                  2
                    printing and retention, taking and recording meal counts by category, and the
                    cash collection activities of traditional operations. In addition, FNS did not
                    permit the SFA to charge any student for meals because individual eligibility
                    determinations were not made and because of the cost savings realized.
                    These procedures and the schools that operate under them are referred to as
                    “Universal Free.” The alternative procedures have been employed at the
                    SFA since 1991.

                    During SY 1999/2000, the SFA claimed over 29 million NSLP and SBP
                    meals served and received reimbursement of over $45 million from these
                    programs.

Objective           The objective of our review was to determine whether the School District of
                    Philadelphia (SDOP) complied with Federal regulations for ensuring the
                    accuracy of meal counts prior to the submission of monthly claims for
                    reimbursement.




USDA/OIG-Audit No. 27010-31-Hy                                                                  3
Findings and Recommendations
Section 1. Required Management Controls Not In Place To Prevent Invalid Program
           Payments

                                 During SY 1999/2000, the SFA did not comply with Federal regulations for
                                 ensuring the accuracy of meal counts prior to the submission of monthly
                                 claims for reimbursement. Specifically, the SFA:

                                 •   claimed 241,852 meals served in excess of students in attendance, and
                                     claimed 147,954 meals in the incorrect reimbursement category;

                                 •   claimed 109,778 more free and reduced-price meals than could be
                                     supported by approved applications and direct certifications; and

                                 •   did not effectively monitor each school’s meal counting and claiming
                                     system to provide reasonable assurance that feeding sites submitted
                                     accurate meal claims.

                                 These conditions occurred, in part, because the SFA’s operating policies and
                                 procedures did not comply with Federal regulations requiring specific
                                 management controls and monitoring to ensure the accuracy of attendance
                                 and meal count operations, and that students with pending applications be
                                 considered eligible only for paid meals until eligibility for free or reduced-
                                 price meals is determined. Some of these conditions had been identified by
                                 FNS and the SA in their reviews of the SFA in which they made
                                 recommendations for corrective action; however, the SFA did not properly
                                 implement them. As a result, the SFA received excess reimbursements of
                                 $844,065 for claiming errors and meals claimed in excess of attendance. In
                                 addition, based on our review of the SFA’s meal claims and edit check for
                                 November 2002, we identified additional overclaims of $23,359.2



Finding 1:                       Controls Are Needed to Prevent Overclaims

                                 During SY 1999/2000, the SFA claimed 241,852 meals served in excess of
                                 students in attendance, and claimed 147,954 meals in the incorrect category.
                                 This occurred, in part, because the SFA’s operating policies and procedures
                                 did not comply with Federal regulations requiring an average daily
                                 attendance to meal count edit check, by category, by school, to provide
                                 reasonable assurance that each school was not claiming more meals served
                                 than students in attendance, by category. As a result, the SFA received
                                 excess reimbursement of $654,935.3


2
    See exhibit A – Summary of Monetary Results.
3
    See exhibit A – Summary of Monetary Results.
USDA/OIG-Audit No. 27010-31-Hy                                                                               4
                                   Federal regulations4 require SFAs to establish internal controls to ensure the
                                   accuracy of meal counts prior to submission of the monthly claims for
                                   reimbursement. One of the required controls is an edit check5 to compare a
                                   school’s daily count of free, reduced-price, and paid meals against the
                                   product of the number of students in the school currently eligible for free,
                                   reduced-price, and paid meals times an attendance factor. When the edit
                                   check identifies more meals served than students in attendance, the SFA
                                   should followup6 with the school to correct the claim before the SFA’s
                                   monthly claim is submitted to the SA. This control is required for any SFA
                                   having Performance Standard 17 meal counting and claiming violations in its
                                   most recent SA administrative review. The Coordinated Review Effort report
                                   of the Philadelphia SFA’s NSLP and SBP operations, performed in
                                   March 1995 by FNS and the SA, disclosed Performance Standard 1 meal
                                   counting and claiming violations. The review recommended that the SFA
                                   perform the required edit check, including use of an attendance factor. In
                                   July 1995, the SFA responded that it had implemented an edit check.

                                   Our review of the SFA’s controls over meal counting and claiming found that
                                   the SFA did not perform the required edit check; however, the SFA
                                   performed some basic edit checks over the meal claim and attendance data in
                                   its computer system and indicated that it performed the required edit check,
                                   which it referred to as an “audit check.” We found that the SFA’s edit check
                                   did not meet 7 CFR § 210.8(a)(3), which requires that an attendance factor be
                                   included to adjust for absenteeism, by school. In addition, the SFA did not
                                   followup with schools that were shown to have excessive meal claims, and
                                   had no documentation showing whether corrective actions had been made. In
                                   this regard, our review found overclaims occurring on several different days,
                                   indicating that the SFA had not taken corrective actions.

                                   To determine the effectiveness of the SFA’s edit check, we reviewed meal
                                   counts and meal claims data submitted by the SFA for 229 Universal Free
                                   sites and 77 Traditional feeding sites. We analyzed daily attendance and
                                   meal counts, by category, by school. In addition, we compared the number of
                                   meals claimed to the number of students in attendance by eligibility category
                                   each serving day for each meal count reporting site. Our comparison of daily
                                   counts and attendance information for Traditional feeding sites considered
                                   the eligibility status of each student (free, reduced-price, and paid) according
                                   to school yearend data. We could not evaluate changes in eligibility status
                                   throughout the year because the SFA overwrote its computerized monthly
                                   eligibility records with new data. In accordance with 7 CFR § 210.23(c), school
                                   food authorities should retain their records for a period of 3 years after
                                   submission of the final claim for reimbursement. At Universal Free feeding
                                   sites we compared total attendance to total meals claimed each day. We

4
    Title 7 CFR § 210.8(a), dated January 1, 1999.
5
    Title 7 CFR § 210.8(a)(3), dated January 1, 1999.
6
    Title 7 CFR § 210.8(a)(4), dated January 1, 1999.
7
    Performance Standard 1 is a measure of compliance with Program regulations related to certification, counting, and claiming.
USDA/OIG-Audit No. 27010-31-Hy                                                                                                     5
                       found that the SFA’s edit check did not preclude meal claims on non-serving
                       days, meal claims at an incorrect Universal Free claiming rate, and meal
                       claims at schools with no attendance records to document that students were
                       present. Specifically, 241,852 meals had been claimed in excess of
                       attendance, and 147,954 meals had been claimed in the incorrect category. In
                       addition, we found problems with lunch claims for at least 1 month at 175 of
                       the 229 Universal Free feeding sites, and at 67 of the 77 Traditional feeding
                       sites. Regarding breakfast claims, we found problems for at least 1 month at
                       117 of the 229 Universal Free feeding sites and at 40 of the 77 Traditional
                       feeding sites (see exhibit C for a listing of the overclaims by error type). The
                       following examples demonstrate the conditions that we found:

                       •      169,432 meals were overclaimed. 144 Universal Free sites claimed
                              143,738 more lunches, and 63 Universal Free sites claimed 25,694 more
                              breakfasts served than students in attendance. For example, on
                              May 12, 2000, feeding site #242 claimed 321 lunches served; however,
                              only 270 students were in attendance. This represents an overclaim of
                              51 lunches. Similar overclaims occurred at this site during the course of
                              165 days.

                       •      113,753 meals were claimed in the incorrect category. 66 Traditional
                              sites claimed 101,956 more lunches, and 35 Traditional sites claimed
                              11,797 breakfasts in the incorrect category. Although enough students
                              were in attendance to have received these meals, not enough students in
                              the free or reduced-price category were in attendance to have received the
                              meals. For example, on April 28, 2000, feeding site #836 claimed
                              184 free, 43 reduced-price, and 51 paid lunches served. On that date,
                              147 free category, 62 reduced-price category, and 139 paid category
                              students were present. This represents a misclassification of 37 free
                              meals and 19 reduced-price meals that should be in the paid category.
                              Similar overclaims occurred at this site during the course of 152 days.

                          •   7,299 meals were claimed on non-serving days. 14 Universal Free and
                              3 Traditional feeding sites claimed 7,299 meals served on non-serving
                              days. For example, on January 17, 2000 (Martin Luther King Day),
                              Universal Free site #502 claimed 2,936 lunches served. This was not a
                              school day. This type of error occurred in 27 instances for lunches, and
                              in 28 instances for breakfasts SFA-wide.

                      • 59,778 meals were claimed with no supporting attendance
                        documentation. One Traditional and two Universal Free sites had no
                        attendance records to support their meal claims. We requested
                        attendance data for Universal sites #538 and #583, and Traditional site
                        #680. No documentation was provided to support students in attendance
                        for us to evaluate the meal counts. At those sites we disallowed 35,340
                        lunches and 24,438 breakfasts because no attendance documentation
                        supported the meal claims.
USDA/OIG-Audit No. 27010-31-Hy                                                                6
                    •   32,496 free and reduced-price lunches and breakfasts were misclassified.
                        58 Universal Free sites applied incorrect claiming percentages when
                        allocating the count of free, reduced-price, and paid breakfast categories.
                        This error caused 32,496 meals to be misclassified. For, example, for
                        January 2,000; Universal Free site #157 counted 1,670 breakfasts served.
                        The SFA allocated this count by applying 69.2 percent to the free
                        category and 16.6 percent to reduced-price category. The correct
                        allocation percentages were 47.8 percent to the free category and
                        13.4 percent to the reduced-price category. This error overstated the free
                        count by 358 breakfasts and the reduced-price count by 53 breakfasts.

                    •   77 more meals were served than students in attendance. Two feeding
                        sites (one Traditional and one Universal Free) had combined attendance
                        records and claimed 77 more meals served than students in attendance.
                        Our testing was limited to determining whether total lunches claimed
                        exceeded students in attendance. For example, on November 23, 1999,
                        Universal Free site #112 and Traditional site #192 claimed 857 meals
                        served. On this date the combined attendance was 788 students,
                        representing an overclaim of 69 lunches.

                    The above overclaims occurred because the SFA did not:

                    •   perform the required edit check that compares each school’s daily count
                        of free, reduced-price, and paid meals against the product of the number
                        of students in the school currently eligible for free, reduced-price, and
                        paid meals, respectively, times an attendance factor;

                    •   perform followup at the school level regarding instances where more
                        meals have been claimed than the count of students in attendance, by
                        category, on any given day;

                    •   use proper claiming percentages at Universal Free sites;

                    •   limit school claims to the lesser of counts submitted by the school or the
                        edit check limiting count unless documentation supports the school’s
                        original count;

                    •   retain historical records of each student’s monthly eligibility for meal
                        service (free, reduced-price, or paid) needed for performing daily edit
                        checks of Traditional site meal claims before submitting the
                        corresponding monthly claim for reimbursement to the SA; and

                    •   document attendance and meal count data for Traditional sites separately
                        from Universal Free sites to ensure the accurate evaluation of claims in
                        the edit check process.

USDA/OIG-Audit No. 27010-31-Hy                                                                   7
                    As a result, the SFA overstated its allowable meal counts and received excess
                    NSLP and SBP reimbursement of $654,935 at 258 of 306 feeding sites.

                    In March 2003, the SFA indicated to us that it had taken corrective actions to
                    strengthen controls over its NSLP and SBP meal count operations. In an
                    effort to understand the corrective actions, we performed a review of the
                    SFA’s meal claims and its edit check for November 2002. Although, the
                    SFA believes that it had taken appropriate action to correct the weaknesses
                    described in our report, we found that the weaknesses still persist. For
                    example, we found that the SFA used a computer program to run the required
                    edit check; however, the SFA did not followup to make needed changes when
                    daily counts were “flagged” in certain circumstances. In addition, we found
                    no evidence of improved supervisory review or other management controls to
                    ensure that the edit check was performed correctly and that needed
                    adjustments had been made.

                    Prior reviews performed by FNS and the SA found that the SFA had not
                    properly implemented corrective actions in response to their
                    recommendations related to the edit check. Specifically, a review performed
                    by FNS and the SA in March 2001, showed that the SFA had not
                    implemented the required edit check that was reported in the 1995 review.
                    Our review of November 2002 data, found that the SFA had still not properly
                    implemented the required edit check. As a result, we found additional
                    overclaims of $23,359 for November 2002. In this regard, we continue to
                    believe that our recommendations for ensuring the accuracy of the SFA’s
                    meal counts prior to submission of the monthly claims for reimbursement
                    should be implemented.

                    In our exit conference held on March 4, 2004, SFA officials asserted that the
                    information concerning attendance that was originally provided to the
                    auditors for SY 1999/2000 was incorrect. We incorporated the changes made
                    as a result of the data that we were able to verify. For example, we were told
                    that attendance data for Traditional sites #801, #801A, and #809 was
                    documented under SFA #801. We were able to corroborate that information.
                    As a result, we adjusted the number of meals claimed with no supporting
                    attendance documentation for SFA #809. Some other data provided after our
                    exit conference with the SFA was not corroborated and conflicted with other
                    information available to us.         The SFA confirmed the accuracy of
                    November 2002 attendance data previously provided.




USDA/OIG-Audit No. 27010-31-Hy                                                                  8
Recommendation No. 1

                       Require the SA to direct the SFA to strengthen controls over the SFA’s meal
                       counting and claiming system by:

                       a. Performing the required edit check that compares each school’s daily
                          count of free, reduced-price, and paid meals against the product of the
                          number of students in the school currently eligible for free, reduced-price,
                          and paid meals times an attendance factor. For example, the SFA can
                          compare the daily count within each meal category against each school’s
                          daily attendance records, which document each child’s eligibility
                          category and attendance and can be used to establish the maximum
                          number of claimable meals, by category, each day;

                       b. performing followup at the school level regarding instances where more
                          meals have been claimed than the count of students in attendance, by
                          category, on any given day;

                       c. correcting its claiming percentages for Universal Free sites; and

                       d. limiting school claims to the lesser of counts submitted by the school or
                          the edit check limiting count unless documentation is obtained to support
                          the school’s original count.

                       FNS Response.

                       The SA has indicated that it requires all SFAs in the Commonwealth to sign
                       the “Policy Statement Between the School Food Authority and the
                       Pennsylvania Department of Education, Division of Food and Nutrition.”
                       Since this document requires the SFA to implement required edit checks and
                       comply with federal program requirements the SA has fulfilled the audit
                       recommendation. However, to reinforce program requirements with the
                       SFA, we will direct the SA to execute another SA-SFA agreement for School
                       Year 2004-2005, to be accomplished by July 31, 2004. Further, we will
                       recommend to the SA that the SFA initial all pertinent provisions of the
                       agreement that relate to the audit findings and recommendations.
                       Specifically, we will recommend that the SA highlight provisions related to
                       the above items: a. performing edit checks, b. performing followup at the
                       school level when more meals have been claimed than the count of students
                       in attendance, by category, on any given day, and d. limiting school claims
                       to the lesser of counts submitted by the school or the edit check limiting
                       count unless documentation is obtained to support the school’s original count.

                     Further, by July 31, 2004, FNS will extend the authority for the SDOP to
                     continue the universal feeding pilot through School Year 2004-2005, pending
                     the outcome of our work with the U.S. Census Bureau to identify an
                     alternative methodology for developing claiming percentages. Our letter to
USDA/OIG-Audit No. 27010-31-Hy                                                                 9
                        the SA will advise that the SDOP’s approval for this extension is contingent
                        upon the use of correct claiming percentages. We will direct the SA to
                        include such notification in its letter to the SFA.

                        Finally, the SA has indicated that in conjunction with FNS staff, it will be
                        performing Coordinated Review Effort (CRE) work in Philadelphia during
                        May 2004. In addition to the CRE work identified by the SA, FNS will
                        perform an expanded review of the SFA’s edit check procedures. We expect
                        that work on the CRE, including the SFA’s response, will be completed by
                        January 31, 2005, and that work on a follow-up review, if necessary, will be
                        completed by July 31, 2005.

                        We request management decision based on the above planned actions.

                        OIG Position.

                        We agree with FNS’ proposed management decision. To reach final action
                        for this recommendation, FNS should provide the Office of the Chief
                        Financial Officer (OCFO) (1) a copy of the executed SA-SFA Agreement for
                        SY 2004/2005, to include SFA initials on pertinent provisions as stated in the
                        FNS response; (2) a copy of the notification from the SA to the SFA advising
                        that approval for continuation of the Universal feeding pilot is contingent
                        upon the use of correct claiming percentages; and (3) a copy of the completed
                        CRE, including the SFA’s response.

Recommendation No. 2

                        Require that the SA direct the SFA to implement adjustments to its claims for
                        reimbursement subsequent to SY 1999/2000, as appropriate, and that FNS
                        recover the excess reimbursements.

                        FNS Response.

                        FNS is exploring the feasibility of this recommendation, given limited
                        resources. We fully expect that there should be FNS and/or SA involvement
                        in this process to ensure that it is performed correctly. We request further
                        discussions with OIG concerning how this recommendation could be
                        implemented.

                        OIG Position.

                     We are prepared to take part in further discussions as needed to determine how
                     this recommendation can best be implemented.              As indicated in the
                     methodology section of our report, we developed computer programs to
                     compare daily attendance information with daily meals claimed by each school
                     to help pinpoint weaknesses in the SFA’s meal counting and claiming system
                     and to identify meal overclaims. We are willing to share these programs.
USDA/OIG-Audit No. 27010-31-Hy                                                                   10
                     To reach management decision on this issue, FNS should provide a time-
                     phased plan for the identification and recovery of any additional overpayments
                     to the SFA subsequent to SY 1999/2000, as appropriate.

Recommendation No. 3

                    Require the SA to direct the SFA to retain historical records of each student’s
                    monthly eligibility for meal service (free, reduced-price, or paid) for a period
                    of 3 years, in accordance with 7 CFR § 210.23(c), and use the records to
                    perform daily edit checks of Traditional site meal claims before submitting
                    the corresponding monthly claim for reimbursement to the SA.

                    FNS Response.

                    The SA indicated that the SFA adjusted its computer program to allow
                    retrieval of eligibility records for any given month. In March 2002, the SA
                    and FNS verified that this problem had been corrected in the buildings
                    reviewed. In addition, we will direct the SA to highlight this requirement in
                    its newly executed SA-SFA agreement for SY 2004-2005.

                    We request management decision based on the above planned actions.

                    OIG Position.

                    We accept FNS’ management decision, as indicated in FNS’ response to
                    recommendation 1. To achieve final action, FNS needs to provide to OCFO,
                    a copy of the executed SA-SFA agreement for SY 2004-2005 containing the
                    requirement for retrieval of eligibility records in any given month.

Recommendation No. 4

                    Validate that corrective actions reported by SFA in response to reviews
                    performed by FNS and the SA have been implemented and are effective.

                    FNS Response.

                    We concur with the SA that it has exceeded federal review requirements for
                    the SDOP. During our joint CRE of the SDOP in May 2004, FNS will focus
                    on the issues identified by the audit and the efficacy of the SDOP’s corrective
                    action. We expect that work on the CRE, including the SFA’s response, will
                    be completed by January 31, 2005, and that work on a follow-up review, if
                    necessary, will be completed by July 31, 2005.

                    We request management decision based on the above planned action.



USDA/OIG-Audit No. 27010-31-Hy                                                                   11
                    OIG Position.

                    We agree with FNS’ proposed management decision. To reach final action
                    for this recommendation, FNS should provide the OCFO a copy of the CRE,
                    to include conclusions about the efficacy of the SFA’s corrective actions and
                    a plan for improvement, if the SFA’s corrective actions are not found to be
                    effective.

Recommendation No. 5

                    Require that the SA followup by performing onsite reviews, as determined
                    necessary by FNS, to ensure that the SFA implements the required edit check
                    and limits school claims to the lesser of the meal count or the edit check
                    limiting count and retains documentation supporting the accuracy of the
                    original count. Questioned costs identified through this process should be
                    recovered from the SFA, and testing should be expanded to determine the
                    extent of errors in the event that additional noncompliance with the required
                    edit check process is identified.

                    FNS Response.

                    As documented in the annual Federal-State agreement, FNS requires that the
                    SA comply with all program requirements, including those related to SFA
                    monitoring. FNS will work with the SA during the CRE scheduled for May
                    2004 to evaluate the SFA’s edit check procedures and to ensure the validity
                    of the SFA’s claims for reimbursement. If CRE work identifies violations
                    exceeding performance standard thresholds, the SA has advised of its intent
                    to perform follow-up work. We expect that work on the CRE, including the
                    SFA’s response, will be completed by January 31, 2005, and that work on a
                    follow-up review, if necessary, will be completed by July 31, 2005. In
                    addition, the SA has established a two-year review cycle for the SDOP based
                    on the size of this SFA and in recognition of prior problems.

                    We request management decision based on the above planned action.

                    OIG Position.

                    To achieve management decision, FNS needs to include the recovery of
                    questioned costs and the expansion of testing should noncompliance with the
                    edit check process be identified. In addition, FNS needs to ensure that an
                    adequate representation of schools is tested, as it determines necessary, to
                    provide reasonable assurance of the proper use of the required edit check
                    process throughout the SDOP.




USDA/OIG-Audit No. 27010-31-Hy                                                                12
Recommendation No. 6

                    Direct the SA to follow procedures outlined in 7 CFR § 210.19(c), dated
                    January 1, 2003, to recover the excess reimbursement of $654,935 from the
                    SFA.

                    FNS Response.

                    We agree that it is appropriate to recover excess reimbursement. However,
                    we also recognize the merits of the SA’s suggestion to give the SFA the
                    option of investing the excess reimbursement in a school district-wide
                    computerized Point of Sale (POS) system. We believe this could be a long-
                    term solution to the SFA’s accountability problems. However, in addition to
                    implementing a POS system, we believe the SFA’s performance post-POS
                    system implementation should be evaluated before a decision is made not to
                    recover excess reimbursement.

                    OIG Position.

                    To reach management decision for this recommendation, FNS should provide
                    a copy of the bill for recovery from the SFA of the excess reimbursement.
                    We agree with FNS that a school district-wide POS system could be a long-
                    term solution to the SFA’s accountability problems. We also agree with FNS
                    that the SFA’s performance post-POS system implementation should be
                    evaluated prior to any potential decision to waive or otherwise offset
                    recovery of the excess reimbursement.

Recommendation No. 7

                    Direct the SA to follow procedures outlined in 7 CFR § 210.19(c), dated
                    January 1, 2003, to recover $23,359 from our review of the SFA’s meal
                    claims and its edit check for November 2002, for the overpayment to be
                    collected from the SFA.

                    FNS Response.

                    We agree that it is appropriate to recover excess reimbursement. However,
                    we also recognize the merits of the SA’s suggestion to give the SFA the
                    option of investing the excess reimbursement in a school district-wide
                    computerized POS system. We believe this could be a long-term solution to
                    the SFA’s accountability problems. However, in addition to implementing a
                    POS system, we believe the SFA’s performance post-POS system
                    implementation should be evaluated before a decision is made not to recover
                    excess reimbursement.



USDA/OIG-Audit No. 27010-31-Hy                                                              13
                    OIG Position.

                    To reach management decision for this recommendation, FNS should provide
                    a copy of the bill for recovery from the SFA of the excess reimbursement.
                    As stated in the OIG Position for Recommendation No. 6, we agree that a
                    school district-wide POS system could be a long-term solution to the SFA’s
                    accountability problems.

Recommendation No. 8

                    Direct the SA to require that the SFA document attendance and meal count
                    data for Traditional sites separately from Universal sites to ensure the
                    accurate evaluation of claims in the edit check process.

                    FNS Response.

                    FNS concurs with this recommendation and will provide clarification to the
                    SA on the corrective action needed.

                    OIG Position.

                    To reach management decision, FNS should provide details of the direction
                    to be provided and a date by which the SA will require the SFA to document
                    attendance and meal counts separately for Traditional and Universal feeding
                    sites.




USDA/OIG-Audit No. 27010-31-Hy                                                              14
Finding 2:                        Controls Are Needed to Limit Claims to Only Approved
                                  Applicants for Free and Reduced-Price Meals

                                  The SFA claimed 109,778 more free and reduced-price meals than could be
                                  supported by approved applications and direct certifications at Traditional
                                  schools between September and December 1999. This occurred primarily
                                  because the SFA’s operating policy allowed applicants to be considered
                                  eligible for free and reduced-price meals upon receipt of the application
                                  rather than when the application is approved, and because of counting errors
                                  occurring at the schools. As a result, the SFA received excess NSLP and
                                  SBP reimbursements of $189,130 (see Exhibit A) in addition to the overclaim
                                  reported in Finding 1.

                                  Federal regulations8 provide that SFAs, to start the school year, are to carry
                                  over each current year student’s eligibility status from the prior year and
                                  document the students determined eligible for the current year on the basis of
                                  direct certification. Then, SFAs are to begin processing new applications for
                                  the current school year. If no prior year or direct certification information is
                                  available, the new applicants are considered eligible only for paid meals until
                                  eligibility is determined for free and reduced-price meals.

                                  Our review found that the SFA’s policies and procedures9 did not comply
                                  with 7 CFR 245.6(b) because they considered each applicant eligible for free
                                  and reduced-price meals upon receipt of an application, and during the time
                                  the application is under consideration for approval. To determine the effect
                                  of the SFA’s policies and procedures on lunch and breakfast claims, we
                                  reviewed claims at 7610 of 80 sites operating under Traditional procedures
                                  during the peak application-processing period of September 1999 through
                                  February 2000. Our review excluded the lunch and breakfast overclaims that
                                  we identified in Finding No. 1. Specifically, we performed the following
                                  procedures:

                                  •    To determine the maximum count of free and reduced-price meals that
                                       could be served for a day we used the count of students eligible for free
                                       and reduced-price meals documented on each school’s monthly edit
                                       check report.

                                  •    To calculate the maximum monthly claim for each category we
                                       multiplied the maximum daily count of free and reduced-price meals by
                                       the number of serving days each month.


8
     Title7, CFR § 245.6(b), dated January 1, 1999 (same as Title 7, CFR § 245.6(c), effective January 27, 2000).
9
     Philadelphia SFA’s Policies and Procedures Manual, Section 4, Paragraph 2, Subparagraph B.3.a, Page 4.2-1, & Subparagraph B.3.b,
     dated September 1998.
10
     We were unable to perform this review at four sites because records for attendance or the edit checks were not provided.
USDA/OIG-Audit No. 27010-31-Hy                                                                                                   15
                    •   To establish a maximum allowable claim for each month we limited the
                        monthly count by applying an attendance factor based on each school’s
                        attendance and enrollment information from the school computer network
                        system for the month.

                    We compared our calculated maximum monthly claim to each school’s
                    monthly meal claim for September through February shown on the SFA’s
                    monthly detailed meal claims. We found that 63 feeding sites claimed
                    100,914 more free and reduced-price lunches than students in attendance and
                    determined eligible to receive those lunches (see Exhibit D). Regarding
                    breakfast claims, 14 feeding sites claimed 8,864 more free or reduced-price
                    breakfasts than students in attendance and determined eligible to receive
                    those breakfasts (see Exhibit D). Upon identification of the overclaims, we
                    attempted to determine the amount attributed to the SFA’s incorrect policy
                    and the amount attributed to claiming errors. Because the SFA did not retain
                    a roster and other onsite counting records, we were unable to identify the
                    amount attributed to claiming errors. The following example demonstrates
                    how we identified the overclaims:

                    •   Traditional site #725 claimed 13,842 free lunches served during the
                        19 days of operation in November 1999. The SFA’s edit check report
                        showed that 669 students were determined eligible for free lunches in
                        November 1999. The school district’s school computer network
                        indicated that 91.826 percent of the enrolled students attended school in
                        November. We calculated that a maximum of 11,672 free lunches could
                        have been served during the month by multiplying the count of eligible
                        students enrolled (669) times the number of serving days (19) times the
                        attendance factor (91.826 percent); however, the school claimed 13,842
                        free lunches. As a result, the school had overstated its free lunch count
                        by 2,170 meals. To assure that we did not duplicate this overclaim with
                        the overclaim we identified in Finding No. 1, we compared the two
                        results. Because we identified an overclaim of 1,860 lunches previously
                        reported in Finding No. 1, we reduced the overclaim to 310 lunches.

                    We found that the SFA was unable to preclude excessive meal claims
                    because its policies and procedures did not limit claims for free or reduced-
                    price meals to the count of students determined eligible for such meals. In
                    addition, the SFA’s internal controls did not prevent schools from claiming
                    for reimbursement free meals served to students whose applications have not
                    been approved for free meals. Further, the SA did not routinely followup
                    with the SFA to ensure that the SFA was claiming free meals served only to
                    those eligible for free meals. As a result, the SFA had received $189,130 in
                    excess reimbursements for 109,778 more free and reduced-price meals than
                    records could support.



USDA/OIG-Audit No. 27010-31-Hy                                                                16
                    Based on our review of the SFA’s meal claims and its edit check for
                    November 2002, we found that the SFA had revised its policy, effective
                    September 2002, to require that new applicants be considered eligible only
                    for paid meals until eligibility is determined for free and reduced-price meals.
                    To the extent that the SFA’s policy regarding eligibility determination caused
                    overclaims for free and reduced-price meals, we believe that the SFA’s
                    revised policy should correct the condition.

Recommendation No. 9

                    Require that the SA direct the SFA to modify its application processing
                    instructions in the SFA’s Policies and Procedures Manual to comply with
                    Federal regulations by requiring that students with pending applications be
                    considered eligible only for paid meals until eligibility for free or reduced-
                    price meals is determined.

                    FNS Response.

                    As noted, the SFA revised its policy effective September 2002. Also, the SA
                    confirmed that the policy was revised. Accordingly, we request management
                    decision for this recommendation.

                    OIG Position.

                    We accept FNS’ management decision. During our review, we obtained a
                    copy of the SFA’s Policies and Procedures Manual, effective September
                    2002, showing the requirement that students with pending applications be
                    considered eligible only for paid meals until eligibility for free or reduced-
                    price meals is determined. To achieve final action for this recommendation,
                    FNS should request closure from the OCFO, based on actions taken.

Recommendation No. 10

                    Require that the SA direct the SFA to develop and implement internal
                    controls to prevent schools from claiming for reimbursement free and
                    reduced-price meals served to students whose applications have not been
                    approved for such meals.

                    FNS Response.

                    FNS and the SA evaluated the SFA’s performance in this area during a
                    March 2002 follow-up review. We found that free or reduced-price meals
                    were not claimed unless an application had been approved. Accordingly, we
                    request management decision for this recommendation.



USDA/OIG-Audit No. 27010-31-Hy                                                                   17
                    OIG Position.

                    To reach management decision for this recommendation, FNS should provide
                    details of the SFA’s internal controls to prevent schools from claiming for
                    reimbursement free and reduced-price meals served to students whose
                    applications have not been approved for such meals.

Recommendation No. 11

                    Require that the SA routinely followup with the SFA to ensure that the SFA
                    is claiming free meals served only to those eligible for free meals.

                    FNS Response.

                    FNS and the SA will follow up on this matter during the May 2004 CRE.
                    We expect that work on the CRE, including the SFA’s response, will be
                    completed by January 31, 2005, and that work on a follow-up review, if
                    necessary, will be completed by July 31, 2005. We request management
                    decision based on the above planned action.

                    OIG Position.

                    We agree with FNS’s proposed management decision. To achieve final
                    action, FNS should provide the OCFO a copy of the completed CRE, to
                    include an assessment of whether the SFA is claiming only the free meals
                    served to those eligible for free meals and a plan for followup review on
                    issues identified.

Recommendation No. 12

                    Direct the SA to follow procedures outlined in 7 CFR § 210.19(c), dated
                    January 1, 2003, to recover the excess reimbursement of $189,130 from the
                    SFA.

                    FNS Response.

                    We will consider providing the SFA with the option of investing the excess
                    reimbursement in a school district-wide computerized POS system.
                    Management decision concerning this option would depend upon an
                    estimated completion date of the following conditions: (1) the SFA
                    implementing final action on recommendations 1, 2, 3, 4, 8, 10, 11, and 13 in
                    this report; (2) the SA and FNS approving a detailed plan by the SFA for a
                    school district-wide POS system; and (3) acceptable performance of the
                    SFA’s post-POS system implementation, as determined by FNS and the SA.



USDA/OIG-Audit No. 27010-31-Hy                                                                18
                                  OIG Position.

                                 To reach management decision for this recommendation, FNS should provide
                                 a copy of the bill for recovery of the excess reimbursement. We are open to
                                 considering an alternative management decision, as set forth in the FNS
                                 response, and agree that improvement on the part of the SFA is a prerequisite
                                 to any such decision.


Finding 3:                        The SFA’s Monitoring of Meal Counting and Claiming Systems
                                  Needs Improvement

                                  The SFA did not effectively monitor the NSLP and SBP meal counting and
                                  claiming systems to ensure accurate meal claims during SY 1999/2000. Our
                                  review found that the SFA, in performing onsite reviews: (1) allotted
                                  insufficient time for each monitor to perform an adequate review of each
                                  school’s counting and claiming system; (2) did not cover all areas required by
                                  the SA instructions; (3) limited test coverage to only the review day’s meal
                                  count; (4) used incomplete or inaccurate meal count and attendance
                                  information; (5) did not assess, as one unit, schools with more than one
                                  feeding site; and (6) considered pending applications as being eligible for free
                                  meals. As a result, the SFA’s monitoring process did not ensure the accuracy
                                  of meal claims and did not prevent or detect the overclaims reported in
                                  Finding Nos. 1 and 2.

                                 Federal regulations and the SA instructions each require the SFAs to establish
                                 specific internal controls regarding meal counts. Federal regulations11 require
                                 the SFAs to establish internal controls for ensuring the accuracy of meal
                                 counts prior to submission of the monthly claims for reimbursement. One of
                                 the required controls12 is an annual onsite review of each school’s lunch
                                 counting and claiming systems by February 1. The onsite review is to ensure
                                 that the counting system being implemented yields the actual number of
                                 reimbursable free, reduced-price, and paid meals, served for each day of
                                 operation. The SA’s instructions13 require unannounced visits to feeding sites
                                 and observation of meal and snack service during all serving periods for all
                                 serving lines, and that the SFA monitors compare the number of students
                                 eligible by category with the number of meals claimed each day. This
                                 comparison is for the prior month if the review is performed within the first
                                 15 days of the month, or for the current month if the review is performed
                                 later. In addition, the SA’s instructions require monitors to examine edit
                                 check worksheets to ensure their completion. A monitoring review form
                                 containing 11 specific questions is to be answered, including a key question,
                                 “Does the system provide an accurate count of the number of reimbursable

11
     Title 7, CFR § 210.8(a), dated January 1, 1999.
12
     Title 7, CFR § 210.8(a)(1), dated January 1, 1999.
13
     NSLP Memo #99-10, dated June 16, 1999, Instructions and Guidance for Onsite Monitoring.
USDA/OIG-Audit No. 27010-31-Hy                                                                                 19
                    free, reduced-price and paid meals served to eligible children on a daily
                    basis?”

                    Our review of the SFA’s onsite monitoring system for SY 1999/2000 found
                    six internal control weaknesses that we believe led to inaccurate meal claims.
                    During the period, the SFA performed 311 onsite reviews. Only 13 of the
                    reviews cited deficiencies, which may indicate that the SFA concluded
                    general compliance with meal counting, claiming, and serving operations. In
                    contrast, our analysis found numerous overclaims that were not identified by
                    the SFA monitors, as discussed in Finding Nos. 1 and 2. In addition, the SFA
                    did not use the SA-prescribed monitoring review form.

                    The six weaknesses in the SFA’s onsite monitoring system that we found are
                    described below:

                    1. The SFA allotted insufficient time for each monitor to perform an
                       adequate review of each school’s counting and claiming system.

                       The schedule of 11 monitors reviewing counting and claiming systems
                       showed that: 1 monitor visited 5 sites in 1 day; 4 monitors visited 4 sites
                       in 1 day; all 11 monitors visited 3 sites in 1 day; and all 11 monitors
                       visited 2 sites on at least 1 day. We do not believe that an assessment of
                       whether NSLP and SBP operations are in compliance with regulations
                       could be completed in less than a full day. Factors that support our belief
                       include: (a) the complexity of the meal counting system used by the
                       school; (b) the large population of many schools; (c) the number of
                       serving lines; (d) the number of feeding shifts; (e) the number of sites also
                       serving breakfasts; and (f) the extent of testing required by the SA.

                    2. An alternative review form used by the SFA to document its reviews did
                       not ensure that monitors addressed all questions and assessments required
                       by the SA.

                       The SFA’s alternative review form did not address: (a) the key question
                       of whether the site’s meal counting system yielded the accurate count of
                       reimbursable meals, by category; (b) the comparison of the number of
                       students eligible, by category, to the daily meal counts for days prior to the
                       review date; (c) the examination of edit checks to ensure their completion;
                       (d) the number of serving shifts and feeding lines to be observed; and
                       (e) that breakfast and lunch services were to be reviewed. Without such
                       documentation the SFA could not ensure the accuracy of the schools’
                       counting systems.

                    3. The monitors only tested the review day meal count.

                       The monitors did not perform the comparison of the number of students

USDA/OIG-Audit No. 27010-31-Hy                                                                    20
                       eligible, by category, with the number of meals claimed for days prior to
                       the date of the visit, as required by the SA. For example, the monitor
                       visited Universal Free site #547 on November 3, 1999. Because the visit
                       was within the first 15 days of the month, the SA required the comparison
                       to cover October 1999 claims. Our review disclosed that meal counts
                       exceeded attendance on 10 of the 20 days in October. Had the monitor
                       disclosed the weakness and the school corrected the problem, subsequent
                       excess claims for 9,156 meals on 38 days could have been precluded.

                    4. Monitors did not always obtain accurate or complete attendance or meal
                       count data to accurately assess the counting system.

                       Some monitors only reviewed one meal service shift or one meal service line
                       and used an attendance factor rather than actual attendance. For example, a
                       monitor visited Universal Free feeding sites #526, #526A, and #526B (one
                       school for attendance records) on November 2, 1999. The monitor tested the
                       count and attendance information, by feeding site, by applying invalid
                       attendance percentages to incorrect enrollment totals for each feeding site.
                       The monitoring forms showed an aggregate of 1,408 enrolled students;
                       however, only 1,289 students were actually enrolled according to attendance
                       records. In addition, the monitoring form showed an aggregate of
                       1,310 meals served. Our analysis of attendance records disclosed that only
                       1,209 students were present on the day of the visit. The maximum allowable
                       claim, 1,209 meals, was 101 less than the 1,310 meals accepted as correct by
                       the monitor. Had the monitor identified the weakness and the school
                       corrected the problem, subsequent excess claims for 12,682 meals on
                       130 days could have been precluded.

                    5. Schools with more than one feeding site were not tested as one unit and were
                       not always tested on the same day.

                       One monitor visited Universal Free site #544B on November 30, 1999;
                       Universal Free site #544 on December 14, 1999; and Universal Free site
                       #544A on January 11, 2000. For those sites, we were unable to determine
                       how the monitor determined the attendance or concluded that there were no
                       problems. Our comparison of the total attendance to total meal counts for
                       the entire unit for the three days demonstrated an overclaim of 136 meals, as
                       shown below:

                       •    November 30 (site #544B) - total attendance was 634 students, and
                            677 total meals were claimed, resulting in an overclaim of 43 meals.

                       •    December 14 (site #544) - total attendance was 580 students, and
                            612 total meals were claimed, resulting in an overclaim of 32 meals.



USDA/OIG-Audit No. 27010-31-Hy                                                                   21
                       •    On January 11 (site #544A) – total attendance was 629 students, and
                            690 total meals were claimed, resulting in an overclaim of 61 meals.

                       Had the monitor identified the weakness on November 30 and the school
                       corrected the problem, subsequent excess claims for 4,145 meals on 76 days
                       could have been precluded.

                    6. The monitors followed the SFA’s policy that considered pending
                       applicants to be eligible for free meals at the Traditional schools.

                       One monitor did not question the meal counting system or that free meal
                       claims exceeded the number of students determined eligible for free meals
                       at Traditional feeding site #836 on December 13, 1999. Specifically,
                       while documents show that 178 students had been approved to receive
                       free meals, 190 free meals were claimed. The documentation should have
                       led to the monitor identifying an overclaim of 12 meals; however, the
                       monitor noted 37 pending applications, and did not question the counting
                       system. This condition is further discussed in Finding No. 2.

                    We concluded that the SFA’s onsite monitoring of meal counting systems did
                    not provide reasonable assurance that feeding sites submitted accurate meal
                    claims, and did not prevent overclaims. Based on our review of data for
                    November 2002, the problem has persisted into SY 2002/2003.

Recommendation No. 13

                    Require that the SA direct the SFA to improve its onsite monitoring system
                    by implementing more effective controls to ensure the submission of accurate
                    meal claims. These controls should include:

                    a. sufficient time for monitors to perform the SA’s monitoring requirements;

                    b. ensuring that review forms used by monitors include all questions and
                       assessments required by the SA;

                    c. testing meal counts for the SA-required number of days;

                    d. obtaining accurate and complete attendance and meal count data to
                       perform an accurate assessment of the meal counting system;

                    e. testing, as one unit on the same day, schools with more than one feeding
                       site; and

                    f. ensuring that monitors are instructed to consider pending applications for
                       free or reduced-price meals as eligible only for paid meals.


USDA/OIG-Audit No. 27010-31-Hy                                                                22
                    FNS Response.

                    We concur that the SFA needs to improve its onsite monitoring system. FNS
                    and the SA will develop specific recommendations for the SFA in
                    conjunction with the May 2004 CRE. We expect that work on the CRE,
                    including the SFA’s response, will be completed by January 31, 2005, and
                    that work on a follow-up review, if necessary, will be completed by July 31,
                    2005.

                    We request management decision based on the above planned action.

                    OIG Position.

                    We agree with FNS’ proposed management decision. To reach final action,
                    FNS should provide the OCFO a copy of the completed CRE, to include
                    specific recommendations incorporating controls to ensure each of the six
                    elements set forth in the recommendation and details of how those controls
                    have been implemented by the SFA.




USDA/OIG-Audit No. 27010-31-Hy                                                               23
Scope and Methodology
                    The scope of our review covered National School Lunch Program (NSLP)
                    and School Breakfast Program (SBP) operations in SY 1999/2000 in which
                    the School Food Authority (SFA) claimed over 29 million NSLP and SBP
                    meals served, and received reimbursement of over $45 million from these
                    programs. Meal claim records of other periods were reviewed as deemed
                    necessary. We performed audit work at FNS’ Mid-Atlantic Regional Office
                    located in Robbinsville, New Jersey; at the State Agency (SA) located in
                    Harrisburg, Pennsylvania; and at the SFA’s office located in Philadelphia,
                    Pennsylvania. Audit work was performed during the period October 2000
                    through December 2002. From March 2003 through May 2003, we reviewed
                    the SFA’s meal claims and edit check for November 2002, to verify
                    corrective actions that the SFA indicated it had taken. In March 2004, we
                    considered additional information provided by the SFA and incorporated
                    revised data to the extent that it was corroborated.

                    This audit includes computer and manual analyses of data from NSLP and
                    SBP daily attendance and meal claims for the reporting months
                    September 1999 through June 2000 and an analysis of November 2002.

                    To accomplish our audit objectives, we reviewed the applicable Federal
                    regulations, the SA instructions and guidance, the SFA policies and
                    procedures, manuals, and instructions governing NSLP and SBP operations.
                    We reviewed the 1995 Coordinated Review Effort (CRE) performed jointly
                    by FNS and the SA officials of the SFA’s NSLP and SBP operations, and the
                    SFA’s corrective actions taken in response to the CRE review findings and
                    recommendations. During our review of the SFA’s meal claims and edit
                    check for November 2002, we looked at a CRE review performed by FNS
                    and the SA in March 2001, and corrective actions taken in response to the
                    review. In addition, we performed the following audit procedures:

                    •   We interviewed the SFA officials to determine the SFA’s edit check
                        processes employed to ensure the accuracy of its monthly meal claims
                        submitted to the SA.

                    •   We compared the claiming rate established in 1994 by the socio-economic
                        study to the claiming rate used by the SFA for each of the Universal Free
                        schools to determine whether the SFA correctly allocated the meal claims
                        by category (free, reduced-price, and paid) to assure that resulting claims
                        were accurate.

                    •   We reviewed the SFA’s onsite monitoring reports for the 311 sites it visited
                        as of February 1, 2000 (SY 1999/2000) and compared the review results to
                        our findings to assess the effectiveness of the reviews in identifying errors.

USDA/OIG-Audit No. 27010-31-Hy                                                                     24
                                   •    We obtained the SY 1999/2000 computerized records documenting the
                                        monthly meal claims, attendance, and enrollment data of the SFA. To
                                        evaluate the information, our statistician developed computer programs to
                                        compare the daily attendance information to daily meals claimed by each
                                        school.      The computerized programs compared various types of
                                        information. For each Universal Free school, we compared the daily meal
                                        count against the daily attendance count to determine whether more meals
                                        were claimed than students in attendance. For each Traditional school, we
                                        compared the daily meal claim, by category (free, reduced-price, and paid)
                                        against the daily attendance count, by category, to determine whether more
                                        meals were claimed in any category than students in attendance in that
                                        eligibility category. The eligibility category for each student was based
                                        upon data as of June 2000. We were not able to use the eligibility category
                                        for each month because the SFA did not retain a history of eligibility
                                        determinations by month.

                                   •    We reviewed the SFA’s available edit check reports, entitled Monthly Audit
                                        Check for September 1999 through February 2000. We compared the free
                                        and reduced-price eligibility information documented on these reports to the
                                        monthly meal counts for the Traditional schools to determine whether more
                                        meals were claimed than could have been served to students determined
                                        eligible for these subsidized meals. To accomplish this, we adjusted the
                                        maximum potential monthly claim downward to consider absenteeism as is
                                        required by regulations.14 For example, if there were 50 approved free
                                        applications and 10 serving days, the maximum potential free meal claim
                                        would be 500 free meals if attendance were not considered. However,
                                        attendance records showed only 90 percent of the enrolled students were in
                                        attendance. Therefore, the maximum allowable claim would be 450 free
                                        meals.

                                  •    We performed manual analyses to identify other types of meal claiming
                                       errors, including tests to identify meals claimed on days that were not
                                       valid serving days (e.g., holidays) and to identify meals claimed without
                                       documentation of students in attendance.

                                  •    We visited seven schools (four traditional and three universal) to review
                                       the accuracy of their meal counting and claiming systems. We also
                                       obtained and reviewed documentation of the schools’ daily
                                       attendance/enrollment records and weekly meal claims reports.

                                  •    We held detailed discussions with the SFA’s Information Technology
                                       Systems Analysis Manager to understand how attendance data was

14
     7 CFR 210.8(3)(i), dated January 1, 1999.

USDA/OIG-Audit No. 27010-31-Hy                                                                                   25
                       developed for SY 1999/2000, and to assess revised data provided in
                       March 2004.

                    This audit was conducted in accordance with generally accepted government
                    auditing standards.




USDA/OIG-Audit No. 27010-31-Hy                                                            26
Exhibit A - Summary of Monetary Results
   Recommendation                             Amount
        No.          Description             (Rounded)    Category

           6         Meal claims in excess       $654,935 Questioned Cost
                     of attendance.                       Recovery
                                                          Recommended


           7         Meal claims in excess        $23,359 Questioned Cost
                     of attendance                        Recovery
                     (November 2002).                     Recommended


           12        Meal claims in excess       $189,130 Questioned Cost
                     of eligibility                       Recovery
                     documents.                           Recommended




USDA/OIG-Audit No. 27010-31-Hy                                              27
Exhibit B - List of Schools, Feeding Sites, and Excess Claims
                                                                Page 1 of 10

         Feeding Feeding                   Excess      Excess         Total
School     Site    Site  Site              Lunch    Breakfast        Excess
Count     Count     #    Type              Claim       Claim         Claim
            1      101    UF             6,017.37    1,560.12     $7,577.49
            2      150    UF               191.42       45.47      $236.89
            3      157    UF            10,282.29    4,245.35    $14,527.64
  1         4      199    UF             3,596.50    1,020.17     $4,616.67
  2        5      102    UF              1,671.24      754.74     $2,425.98
  3        6      108    UF                                          $0.00`
  4        7      110    UF                            247.11       $247.11
  5        8      111    UF               -153.94       31.44      -$122.50
           9      112    UF
           10     192    TR
  6                             Total     353.26       137.80       $491.06
  7        11     113    UF                                           $0.00
  8        12     115    UF               -122.40       73.83       -$48.57
  9        13     116    UF               157.52        41.42       $198.94
           14      120   UF
           15     120A   UF
  10                            Total     575.69        87.07       $662.76
  11       16     121    UF              2,115.89                 $2,115.89
  12       17     123    UF                61.64        34.04        $95.68
           18      125   UF
           19     125A   UF
  13                            Total    4,386.13       45.78     $4,431.91
  14       20     126    UF               207.09                    $207.09
  15       21     127    UF                97.45                     $97.45
           22      129   UF
           23     129A   UF
  16                            Total                                 $0.00
           24     130    UF
           25     152    UF
  17                            Total     312.56        92.48       $405.04
  18       26     131    UF               375.52                    $375.52
  19       27     133    UF               350.37                    $350.37
  20       28     134    UF                                           $0.00




USDA/OIG-Audit No. 27010-31-Hy                                                 28
                                                                 Page 2 of 10


         Feeding Feeding                   Excess      Excess          Total
School    Site    Site     Site            Lunch     Breakfast        Excess
Count    Count     #       Type             Claim       Claim         Claim
           29     135      UF
           30     193      UF
  21                              Total   3,059.14                 $3,059.14
  22       31     136      UF               -52.84      -54.50      -$107.34
  23       32     137      UF               52.13       -34.88        $17.25
  24       33     138      UF                           119.39       $119.39
  25       34     139      TR             2,004.80                 $2,004.80
  26       35     140      UF             3,874.43                 $3,874.43
  27       36     141      UF             1,176.09                 $1,176.09
  28       37     142      UF              801.78        52.91       $854.69
  29       38     143      UF              908.81        47.92       $956.73
  30       39     144      UF              150.39                    $150.39
  31       40     145      UF                                          $0.00
  32       41     146      UF              377.27        27.25       $404.52
  33       42     147      UF             1,133.21                 $1,133.21
  34       43     149      UF              298.96                    $298.96
  35       44     153      UF              529.84       -18.53       $511.31
  36       45     158      UF              903.69       810.37     $1,714.06
  37       46     200      UF             -177.21       -59.95      -$237.16
  38       47     201      UF                                          $0.00
  39       48     202      UF               51.17                     $51.17
  40       49     206      UF                                          $0.00
  41       50     209      UF              319.96       448.98       $768.94
  42       51     210      UF              167.09                    $167.09
  43       52     211      UF              155.85        28.51       $184.36
  44       53     212      UF                            10.10        $10.10
  45       54     213      UF              423.51        37.06       $460.57
  46       55     215      UF              155.74                    $155.74
  47       56     216      UF              150.36       284.47       $434.83



  48       57     219      UF              683.38                    $683.38
           58      220     UF
           59     220A     UF
           60     220B     UF
  49                              Total                                $0.00
                                                                 Page 3 of 10



USDA/OIG-Audit No. 27010-31-Hy                                                  29
         Feeding Feeding                  Excess      Excess          Total
School     Site    Site  Site             Lunch     Breakfast        Excess
Count     Count     #    Type             Claim        Claim         Claim
  50       61     221      UF             123.51        31.61       $155.12
  51       62     222      TR            4,733.27      185.30     $4,918.57
  52       63     224      UF            1,183.86                 $1,183.86
  53       64     226      UF             901.38       103.73     $1,005.11
  54       65     229      UF             -137.83      -40.33      -$178.16
  55       66     230      TR            6,990.93                 $6,990.93
  56       67     231      UF                4.00                     $4.00
           68     232      UF
           69     241      TR
  57                            Total                                 $0.00
  58       70     234      TR            6,021.56                 $6,021.56
           71      237     UF
           72     237A     UF
  59                            Total     498.33                    $498.33
  60       73     238      TR           16,006.79                $16,006.79
  61       74     239      UF             -162.49        9.19      -$153.30
           75      240     UF
           76     240A     UF
  62                            Total                                 $0.00
  63       77     242      UF            7,830.72      110.32     $7,941.04
  64       78     243      UF              85.60                     $85.60
  65       79     244      UF             195.45                    $195.45
  66       80     245      UF            1,152.85                 $1,152.85
  67       81     247      TR                3.58                     $3.58
  68       82     248      UF            1,805.22                 $1,805.22
  69       83     249      UF            2,329.98       93.12     $2,423.10
  70       84     251      UF              36.23       131.21       $167.44
  71       85     252      UF             295.98                    $295.98
  72       86     254      UF            6,942.80                 $6,942.80
  73       87     258      UF                                         $0.00
  74       88     259      UF             256.27        14.17       $270.44
  75       89     263      UF             107.72                    $107.72
  76       90     264      UF                                         $0.00
  77       91     269      UF             164.27        31.61       $195.88
  78       92     272      UF                                         $0.00
  79       93     273      UF                                         $0.00
  80       94     401      UF                                         $0.00
                                                                Page 4 of 10


         Feeding Feeding                  Excess      Excess          Total


USDA/OIG-Audit No. 27010-31-Hy                                                 30
School    Site    Site     Site             Lunch     Breakfast        Excess
Count    Count     #       Type              Claim       Claim         Claim
  81       95     402       UF              -248.81      -64.31      -$313.12
  82       96     403       UF               25.95                     $25.95
           97     406       UF
           98     609       UF
  83                              Total    1,517.78      390.00     $1,907.78
          99       410      UF
          100     410A      UF
          101     410B      UF
  84                              Total      27.83        65.42        $93.25
  85      102     411       UF                                          $0.00
  86      103     412       UF                                          $0.00
  87      104     413       UF              -132.46      -41.42      -$173.88
  88      105     414       UF                                          $0.00
  89      106     415       UF                                          $0.00
  90      107     421       UF                                          $0.00
  91      108     422       UF              -109.19      -63.22      -$172.41
          109      424      UF
          110     424A      UF
  92                              Total                   27.24        $27.24
  93      111     426       UF               97.45                     $97.45
  94      112     427       UF              245.22                    $245.22
  95      113     428       TR             4,781.09       14.70     $4,795.79
  96      114     429       UF             4,445.13      608.30     $5,053.43
  97      115     430       UF              607.46       240.26       $847.72
  98      116     431       UF                                          $0.00
  99      117     432       TR            22,965.70                $22,965.70
 100      118     434       UF               67.87                     $67.87
 101      119     437       UF              228.65                    $228.65
 102      120     438       UF              206.90                    $206.90
 103      121     439       UF              930.20       140.04     $1,070.24
 104      122     440       UF             1,230.66                 $1,230.66
 105      123     442       UF             3,528.93                 $3,528.93
 106      124     443       UF              500.03       198.84       $698.87
 107      125     444       UF              682.18        30.52       $712.70
 108      126     445       UF               47.62                     $47.62
 109      127     446       UF             3,460.38                 $3,460.38
                                                                  Page 5 of 10


         Feeding Feeding                    Excess      Excess          Total
School    Site    Site     Site             Lunch     Breakfast        Excess
Count    Count     #       Type              Claim       Claim         Claim

USDA/OIG-Audit No. 27010-31-Hy                                                   31
 110       128     447    UF               595.93                    $595.93
 111       129     448    TR              1,638.78      310.65     $1,949.43
 112       130     451    UF               721.95                    $721.95
 113       131     453    UF               123.83                    $123.83
 114       132     456    UF               127.83       175.26       $303.09
 115       133     457    UF              4,588.17                 $4,588.17
 116       134     501    UF               -125.30      -41.42      -$166.72
 117       135     502    UF              4,896.77      -41.42     $4,855.35
 118       136     504    UF              1,014.84      739.13     $1,753.97
 119       137     506    UF              1,077.87      740.13     $1,818.00
           138     510    UF
           139    510A    UF
 120                             Total     671.52        20.92       $692.44
 121       140     511    UF                34.34       -90.47       -$56.13
 122       141     512    UF               -272.40      -59.95      -$332.35
 123       142     513    UF                             39.12        $39.12
 124       143     514    UF                             10.61        $10.61
 125       144     515    TR               563.85                    $563.85
 126       145     517    UF              2,696.43      628.12     $3,324.55
 127       146     520    UF               836.76     3,693.65     $4,530.41
 128       147     521    UF             10,160.55    8,895.76    $19,056.31
 129       148     522    UF               677.78       691.88     $1,369.66
 130       149     523    TR              9,320.53    3,030.20    $12,350.73
 131       150     524    UF                41.17         9.81        $50.98
 132       151     525    UF               113.26                    $113.26
           152     526    UF
           153    526A    UF
           154    526B    UF
 133                             Total   30,171.64       46.87    $30,218.51
 134       155     527    UF                                           $0.00
 135       156     528    UF              9,030.23    3,496.91    $12,527.14
 136       157     529    UF             15,759.28                $15,759.28
 137       158     530    UF                71.43     1,209.34     $1,280.77
 138       159     531    UF               428.80        64.15       $492.95
 139       160     532    UF              7,651.46                 $7,651.46
 140       161     533    UF              2,541.89      259.28     $2,801.17
                                                                 Page 6 of 10

         Feeding Feeding                   Excess      Excess          Total
School     Site    Site   Site             Lunch     Breakfast        Excess
Count     Count     #    Type              Claim        Claim         Claim
 141       162     534    UF               474.44       216.53       $690.97
 142       163     535    UF              5,611.49      480.37     $6,091.86

USDA/OIG-Audit No. 27010-31-Hy                                                  32
 143      164     537       UF                            433.74       396.58       $830.32
 144      165     538       UF                           5,516.68    3,465.52     $8,982.20
 145      166     539       UF                           1,292.70                 $1,292.70
 146      167     540       UF                            363.54                    $363.54
          168      541      UF
          169     541A      UF
 147                                      Total          1,165.51                 $1,165.51
 148      170     542       UF                             24.21                     $24.21
 149      171     543       UF                             -69.81      -16.90       -$86.71
          172      544      UF
          173     544A      UF
          174     544B      UF
 150                                      Total         12,609.02       47.96    $12,656.98
 151      175     545       UF                                                        $0.00
 152      176     547       UF                          20,325.80    2,505.09    $22,830.89
 153      177     548       UF                            405.28                    $405.28
 154      178     549       UF                           6,210.76       47.83     $6,258.59
 155      179     550       UF                           2,284.53                 $2,284.53
          180      553      UF
          181     553A      UF
 156                                      Total          5,143.79    1,405.53     $6,549.32
 157      182     556       UF                           2,360.58                 $2,360.58
 158      183     559       UF                            602.72       104.84       $707.56
 159      184     568       UF                           5,408.94      107.84     $5,516.78
 160      185     583       UF                          18,899.28    5,930.03    $24,829.31
 161      186     601       TR                                                        $0.00
 162      187     602       UF                                                        $0.00
 163      188     603       UF                                          72.06        $72.06
 164      189     604       TR                           5,394.10                 $5,394.10
 165      190     605       TR                           1,828.16                 $1,828.16
 166      191     606       UF                                                        $0.00
 167      192     610       TR                           6,986.37      265.96     $7,252.33
 168      193     611       UF                                                        $0.00
 169      194     615       UF                                                        $0.00


                                                                                Page 7 of 10


         Feeding Feeding                                  Excess      Excess          Total
School    Site    Site      Site                          Lunch     Breakfast        Excess
Count    Count     #       Type                           Claim        Claim         Claim
 170      195     616       UF                            -130.67      -75.21      -$205.88
 170      195     616              Traditional 9/99 -    4,739.92    1,474.11     $6,214.03
                                   1/00


USDA/OIG-Audit No. 27010-31-Hy                                                                 33
 170      195     616              Universal 2/00 –    7,107.79      997.91     $8,105.70
                                   6/00
 171      196     620       UF
 172      197     621       UF                             2.21       27.66        $29.87
 173      198     622       UF                           20.02                     $20.02
 174      199     623       TR                                        25.82        $25.82
 175      200     624       UF                                                      $0.00
 176      201     625       TR                           34.01                     $34.01
 177      202     626       TR                        10,781.17       15.26    $10,796.43
 178      203     627       TR                          587.12                    $587.12
 179      204     628       UF                         3,167.15                 $3,167.15
 180      205     629       UF                                        78.75        $78.75
 181      206     630       UF                         4,519.67      219.37     $4,739.04
 182      207     631       TR                         2,305.23      304.43     $2,609.66
 183      208     632       UF                                                      $0.00
 184      209     633       UF                                                      $0.00
 185      210     634       UF                          509.01                    $509.01
 186      211     635       TR                        18,292.35    4,688.84    $22,981.19
 187      212     638       TR                          116.35                    $116.35
 188      213     639       UF                          177.07        45.89       $222.96
 189      214     640       UF                                                      $0.00
 190      215     641       UF                                                      $0.00
 191      216     643       UF                         1,458.68      -29.43     $1,429.25
 192      217     644       UF                          100.24        23.98       $124.22
 193      218     645       UF                          479.11        15.26       $494.37
 194      219     646       TR                         1,747.04      376.24     $2,123.28
          220      647      UF
          221     647A      UF
 195                                                   8,076.61                 $8,076.61
 196      222     648       TR                                                      $0.00
 197      223     654       UF                           13.81                     $13.81
 198      224     680       TR                        42,464.47   20,653.34    $63,117.81
 199      225     701       UF                                                      $0.00
 200      226     702       UF                                                      $0.00
                                                                              Page 8 of 10


         Feeding Feeding                                Excess      Excess          Total
School    Site    Site      Site                        Lunch     Breakfast        Excess
Count    Count     #       Type                         Claim        Claim         Claim
          227      710      UF
          228     710A      UF
 201                                      Total         230.94       255.83       $486.77
 202      229     711       UF                                        68.32        $68.32

USDA/OIG-Audit No. 27010-31-Hy                                                               34
 203      230     712       TR                                          $0.00
 204      231     713       TR             6,127.17    1,510.52     $7,637.69
 205      232     720       UF             1,773.74                 $1,773.74
          233      721      UF
          234     721A      UF
          235     721B      UF
 206                              Total    6,599.60      -23.98     $6,575.62
          236      722      TR
          237     722A      TR
 207                              Total    1,267.32      373.81     $1,641.13
          238      724      TR
          239     724A      TR
 208                              Total   11,826.53      450.17    $12,276.70
 209      240     725       TR            26,149.53                $26,149.53
          241      726      TR
          242     726A      TR
 210                                       2,216.02                 $2,216.02
          243      727      TR
          244     727A      TR
 211                                       7,815.14      176.32     $7,991.46
          245      728      TR
          246     728A      TR
          247     728B      TR
 212                              Total    2,711.85      176.65     $2,888.50
 213      248     729       UF               35.62                     $35.62
          249      730      UF
          250     730A      UF
 214                              Total      78.08                     $78.08
          251     731       UF
          252     754       UF
 215                              Total     290.97       -45.78       $245.19
 216      253     732       UF               52.04                     $52.04
 217      254     733       TR                                          $0.00
                                                                  Page 9 of 10

         Feeding Feeding                    Excess      Excess          Total
School    Site    Site     Site             Lunch     Breakfast        Excess
Count    Count     #       Type              Claim       Claim         Claim

 218      255     735       UF              224.09       265.12       $489.21
 219      256     736       UF             2,276.50        4.11     $2,280.61
 220      257     738       UF             4,942.17      665.94     $5,608.11
          258     739       UF
          259     739A      UF

USDA/OIG-Audit No. 27010-31-Hy                                                   35
          260     739B      UF
 221                              Total                                  $0.00
          261     740       TR
          262     740A      TR
 222                              Total    2,307.11      456.48      $2,763.59
 223      263     742       UF             7,086.35       65.86      $7,152.21
 224      264     743       UF                                           $0.00
 225      265     744       UF            16,375.23      933.17     $17,308.40
 226      266     746       TR              309.67         8.20        $317.87
 227      267     747       UF              108.14                     $108.14
 228      268     749       TR             4,120.84      139.71      $4,260.55
          269     750       UF
          270     750A      UF
 229                              Total     183.97     2,435.80      $2,619.77
 230      271     751       UF              101.83                     $101.83
 231      272     753       UF                 2.00       56.17         $58.17
 232      273     773       UF             1,953.03       77.39      $2,030.42
          274      801      TR
          275     801A      TR
 233      276      809      TR    Total   31,756.39    6,089.83     $37,846.22
 234      277     802       TR              807.29                     $807.29
 235      278     803       TR                             1.09          $1.09
 236      279     812       TR             5,944.59                  $5,944.59
 237      280     814       TR             1,704.08                  $1,704.08
 238      281     815       TR            10,228.06                 $10,228.06
 239      282     816       TR             5,875.73                  $5,875.73
 240      283     818       TR             3,253.74                  $3,253.74
 241      284     820       TR                 6.76                      $6.76
 242      285     821       TR              341.79       340.08        $681.87


                                                                  Page 10 of 10


         Feeding Feeding                    Excess      Excess          Excess
School    Sites   Site     Site             Lunch     Breakfast          Total
Count    Count     #       Type              Claim       Claim          Claim
 243      286     823       TR             5,328.39      121.54      $5,449.93
 244      287     824       TR                 8.95    1,138.79      $1,147.74
 245      288     825       TR            11,074.73       29.43     $11,104.16
 246      289     826       TR             5,491.79      316.59      $5,808.38
 247      290     827       UF             2,511.92       22.89      $2,534.81
 248      291     830       TR             1,417.68    1,084.55      $2,502.23


USDA/OIG-Audit No. 27010-31-Hy                                                    36
   249        292       831     TR                                 5,919.53               147.50             $6,067.03
   250        293       832     TR                                   234.49                44.69               $279.18
   251        294       833     UF                                   535.71                                    $535.71
   252        295       834     TR                                 3,992.03                                  $3,992.03
   253        296       835     TR                                 5,690.41                                  $5,690.41
   254        297       836     TR                                 9,484.69             1,267.17            $10,751.86
   255        298       837     TR                                 3,911.93               257.04             $4,168.97
   256        299       838     TR                                  9997.99                                  $9,997.99
   257        300       839     TR                                 7,798.38                                  $7,798.38
              301       840     TR
              302      840A     TR
   258                                         Total               6,102.33                                  $6,102.33
   259        303       841     TR                                 2,440.47                                  $2,440.47
   260        304       842     TR                                13,426.79               223.45            $13,650.24
   261        305       843     TR                                 3,946.77                16.72             $3,963.49
   262        306       844     TR                                13,383.42                                 $13,383.42
                                      Totals                    $744,881.39           $99,183.38           $844,064.77

Notes: UF = Universal Free                                   TR = Traditional School
UF schools year end = 195                                    TR schools year end = 66
Partial UF and partial TR schools = 2                        TR feeding sites year end = 77
Total count of schools = 262                                 TR sites with at least one error = 72
UF feeding sites year end = 229                              TR sites Finding 1 lunch error = 67
Total count of feeding sites = 306                           TR sites Finding 1 breakfast error = 40 (38 duplicates
UF sites with at least one error = 187                         and 2 new TR sites)
UF sites with Finding 1 lunch error = 175                    TR sites Finding 2 lunch error = 63 (60 duplicates and
UF sites with Finding 1 breakfast error = 117                  3 new TR sites)
    (105 duplicates and 12 new sites)                        TR sites Finding 2 breakfast error = 14 (duplicates)
Highlighting = combined attendance data
Site #802 is the one site with only a Finding No. 2 error.




USDA/OIG-Audit No. 27010-31-Hy                                                                                           37
Exhibit C - Meal Claim Errors Resulting in Excess Reimbursement
                                                                          Ineligible                                   Reclassified                                          Excess Reimbursement
                                                  Sites                   Reduced-                              Free       Free To     Reduced-      Paid To
                                                 With An           Free       Price        Paid                   To     Reduced-       Price To Reduced-                 Ineligible           Reclassified

Type of Error                                     Error       Meals          Meals        Meals                 Paid         Price            Paid     Price                Amount                Amount




Lunch

UF - Total Claim Exceeds Total Attendance          144      128,404           6,610       8,724                                                                  $ 269,216.04

TR - Free Claim Exceeds Free Attendance            66                                                        101,777                          179                                      $        182,429.64

TR – Claim Exceeds Attendance                       4              221             2                             284            42                                  $        445.20    $            525.16

UF - Lunches Claimed on Non-serving Days           14          5,118            533         884                                                                     $     11,274.44

TR - Lunches Claimed on Non-serving Days            3              665           55          44                                                                     $      1,427.24

UF #112 and TR #192 - Claim Exceeds Attendance      2               66             5             6                                                                  $        141.26

UF - Incorrect Claiming Rate Applied               58                                                         13,444         2,013        6,720                                        $         34,210.76

UF - No Attendance Records                          2        11,775             463         596                                                                 $         24,415.96

TR - No Attendance Records                          1        19,176           1,587       1,743                                                                     $     41,257.23

Column Totals                                               165,425           9,255      11,997              115,505         2,055        6,899           0     $        348,177.37    $        217,165.56

Total Lunch Overclaim                                                                                                                                                                  $        565,342.93


Breakfast

UF – Total Claim Exceeds Total Attendance          63        22,029           1,451       2,214                                                                  $        30,553.64

TR -Free Claim Exceeds Free Attendance             35                                       198               11,644                          153                $            41.58 $            12,812.83

TR - Claim Exceeds Attendance                      12              974           23         280                1,090           283                        6      $         1,348.00    $          1,268.26

UF - Breakfasts Claimed on Non-serving Days        15          2,267            275         495                                                                  $         3,326.05

TR - Breakfasts Claimed on Non-serving Days         2              440           52          39                                                                  $           632.19

UF - Incorrect Claiming Rate Applied               58                                                          7,332           605        2,382                                        $         10,055.16

UF - No Attendance Records                          2          6,950            286         355                                                                  $         9,395.55

TR - No Attendance Records                          1        14,292           1,320       1,235                                                                  $        20,158.95

Breakfast Column Totals                                      46,952           3,407       4,816               20,066           888        2,535           6      $        65,455.96    $         24,136.25

Total Breakfast Overclaim                                                                                                                                                                  $     89,592.21




Summary Results                                            Ineligible      Meals       Claimed                   Reclassified Meals Claimed                             Total Excess Reimbursement

Errors Not Detected by Control Edit Checks                 Lunch           186,677                   Lunch                              124,459                Ineligible                      $413,633.33

                                                           Breakfast         55,175                  Breakfast                           23,495                Reclassified                    $241,301.81

                                                           Total           241,852                   Total                              147,954                Total                           $654,935.14


*




USDA/OIG-Audit No. 27010-31-Hy                                                                                                                                                                                38
Exhibit D - Summary of Meals Claimed in Excess of the Number of Approved
                             Applications and Direct Certifications Shown on the Monthly Audit
                             Check Forms


                                                        NSLP                                    SBP
Number of Sites Tested                                   76                                      76
                                                 Free           Reduced-Price          Free            Reduced-Price
Number of Meals Claimed                         1,771,349           124,876            683,105                21,731

Sites In Error                                             63                                     14
                                                 Free           Reduced-Price          Free            Reduced-Price
Excess Meal Claim                                   98,170             2,744            *8,642                  222
Percent Claimed in Error                             5.5 %             2.2%               1.3%                 1.0%

Reimbursement Rate                                 $1.79              $1.39             *$1.09                 $.79
Excess Reimbursement                         $175,724.30          $3,814.16          $9,415.79              $175.38

         Excess NSLP Reimbursement                   $179,538.46
         Excess SBP Reimbursement                      $9,591.17
         Total Excess Reimbursement                  $189,129.63

* Included 19 free breakfasts for site #843 reimbursed at the needy breakfast rate of $1.09 less the $.21 paid rate.

Note: Between September and December 1999, 79 sites operated under Traditional procedures.
Subsequently, site #219 and #620 converted to Universal Free procedures thus reducing the count to
77 sites operating under Traditional procedures as of June 2000. We were not able to review site #192
because the SFA did not have Monthly Audit Check forms for the test period and attendance was
combined with Universal Free site #112. We were not able to review site #241 because the SFA only
had a Monthly Audit Check form for February 2000 and attendance was combined with Universal Free
site #232. We were not able to review site #680 because the SFA did not provide us with attendance
data and the SFA only had Monthly Audit Check forms for February 2000.




USDA/OIG-Audit No. 27010-31-Hy                                                                                         39
Exhibit E - November 2002 List of Schools, Feeding Sites, and Excess Claims
                                                                    Page 1 of 4

        Feeding Feeding                      Excess       Excess         Total
 School   Site    Site  Site                 Lunch      Breakfast       Excess
 Count Count       #    Type                 Claim         Claim        Claim

   1      1      111    UF                 $ 107.72                  $ 107.72
   2      2      112    UF                     81.54                     81.54
   3      3      192    TR                  3,425.76   $ 2,220.40     5,646.16
   4      4      120    UF                    67.04         60.40       127.44
   5      5      121    UF                     6.48                       6.48
   6      6      125    UF                   387.60                     387.60
   7      7      128    UF                     6.70                       6.70
   8      8      131    UF                   112.30                     112.30
   9      9      133    UF                    60.34                      60.34
  10      10     135    UF                                 197.48       197.48
  11      11     137    UF                     6.48                       6.48
  12      12     139    TR                    25.22                      25.22
  13      13     140    UF                    40.90                      40.90
  14      14     141    UF                    11.02                      11.02
  15      15     143    UF                                 603.64       603.64
  16      16     145    UF                   309.98                     309.98
  17      17     146    UF                                  57.88        57.88
  18      18     220    UF                   217.58                     217.58
  19      19     226    UF                   196.24                     196.24
  20      20     230    TR                    40.74                      40.74
  21      21     231    UF                    62.50                      62.50
  22      22     239    UF                    13.18                      13.18
  23      23     242    UF                    75.20         38.90       114.10
  24      24     245    UF                    17.50                      17.50
  25      25     248    UF                    62.46                      62.46
  26      26     249    UF                  1,192.52                  1,192.52
  27      27     273    UF                     4.32                       4.32
  28      28     403    UF                    25.20                      25.20
  29      29     411    UF                   110.02                     110.02
  30      30     427    UF                    17.28                      17.28
  31      31     432    TR                    34.92                      34.92

                                                                    Page 2 of 4


USDA/OIG-Audit No. 27010-31-Hy                                                    40
        Feeding Feeding                      Excess     Excess          Total
 School   Site    Site  Site                 Lunch    Breakfast        Excess
 Count Count       #    Type                 Claim       Claim         Claim

  32      32     439    UF               $    71.10                   $ 71.10
  33      33     440    UF                   181.12                    181.12
  34      34     442    UF                    15.34                     15.34
  35      35     444    UF                    29.84                     29.84
  36      36     445    UF                    60.12                     60.12
  37      37     446    UF                     8.64                      8.64
  38      38     448    TR                   269.66   $   410.64       680.30
  39      39     456    UF                    15.34                     15.34
  40      40     457    UF                   207.00        87.60       294.60
  41      41     511    UF                    21.82                     21.82
  42      42     512    UF                    53.82                     53.82
  43      43     513    UF                                 11.42        11.42
  44      44     517    UF                   478.12                    478.12
  45      45     522    UF                    17.50        23.72        41.22
  46      46     526    UF                   191.92                    191.92
  47      47     529    UF                     4.32                      4.32
  48      48     531    UF                    30.24                     30.24
  49      49     532    UF                     2.16                      2.16
  50      50     533    UF                    19.66                     19.66
  51      51     535    UF                    38.48                     38.48
  52      52     539    UF                    84.28                     84.28
  53      53     541    UF                   586.22                    586.22
  54      54     542    UF
  55      55     583    UF
                                 Total       114.74        44.94       159.68

  56      56     544    UF                    15.34                     15.34
  57      57     545    UF                   278.32                    278.32
  58      58     547    UF                                 75.66        75.66
  59      59     548    UF                    68.94                     68.94
  60      60     549    UF                    13.18                     13.18
  61      61     556    UF                   109.98                    109.98
  62      62     559    UF                    99.52                     99.52
  63      63     610    TR                   401.58                    401.58



                                                                   Page 3 of 4




USDA/OIG-Audit No. 27010-31-Hy                                                   41
        Feeding Feeding           Excess      Excess          Total
 School   Site    Site  Site      Lunch     Breakfast        Excess
 Count Count       #    Type      Claim        Claim         Claim

  64      64     611     UF      $ 40.90                    $ 40.90
  65      65     615     UF        11.02                      11.02
  66      66     623     TR        10.78                      10.78
  67      67     626     TR       444.88                     444.88
  68      68     629     UF                 $     4.42         4.42
  69      69     635     UF                      18.26        18.26
  70      70     639     UF       344.68                     344.68
  71      71     640     UF        51.96         29.38        81.34
  72      72     680     TR      4,025.18    1,850.78      5,875.96
  73      73     710     UF         2.16                       2.16
  74      74     721     UF       111.60                     111.60
  75      75     726     TR        21.34                      21.34
  76      76     727     TR       131.92                     131.92
  77      77     728     TR        41.58                      41.58
  78      78     731     UF        77.88                      77.88
  79      79     736     UF                       1.40         1.40
  80      80     740     UF       106.30         69.66       175.96
  81      81     744     UF         8.64                       8.64
  82      82     751     UF        17.50                      17.50
  83      83     773     UF       122.62         26.74       149.36
  84      84     801     TR        13.58                      13.58
  85      85     812     TR       981.64                     981.64
  86      86     820     TR        36.86                      36.86
  87      87     823     TR          1.94                      1.94
  88      88     825     TR       143.56                     143.56
  89      89     826     TR          7.76                      7.76
  90      90     830     TR        15.40                      15.40
  91      91     832     TR       281.30                     281.30
  92      92     836     TR        13.58                      13.58
  93      93     838     TR        77.60                      77.60
  94      94     839     TR       149.02                     149.02




                                                         Page 4 of 4


       Feeding Feeding            Excess        Excess        Total

USDA/OIG-Audit No. 27010-31-Hy                                         42
  School     Site     Site    Site                                 Lunch       Breakfast        Excess
  Count    Count        #     Type                                 Claim           Claim        Claim


    95       95       843      TR                             $     13.58                   $    13.58
    96       96       844      TR                                   11.64                        11.64


                                     Totals                   $17,525.44        $5,833.32   $23,358.76




Notes: UF = Universal Free                        TR = Traditional School

  & = SFA # 192 and
     SFA # 680 had no attendance documented

Total count of schools = 96
UF sites with at least one error = 71             TR sites with at least one error = 25
Highlighting = combined attendance data
           or was combined during November 2002




USDA/OIG-Audit No. 27010-31-Hy                                                                           43
   EXHIBIT E-1 - November 2002 Meal Claim Errors Resulting In Excess
                                                           Reimbursement
                                                                        Ineligible                      Reclassified                                 Excess Reimbursement
                                                  Sites                 Reduced-                 Free        Free To       Reduced-    Paid To
                                                 With An         Free       Price     Paid        To        Reduced-       Price To   Reduced-     Ineligible         Reclassified

Type of Error                                     Error         Meals      Meals     Meals       Paid           Price          Paid      Price      Amount                  Amount



Lunch

UF - Total Claim Exceeds Total Attendance          60           2,867         149     226                                                          $6,504.68

TR - Free Claim Exceeds Free Attendance            22                                           1,346                           74                                   $      2,725.20

TR - Claim Exceeds Attendance

UF - Lunches Claimed on Non-serving Days           3             176            9      17                                                           $399.74

TR - Lunches Claimed on Non-serving Days           2             247           19      49                                                           $577.74

UF – Claim Exceeds Attendance

UF - Incorrect Claiming Rate Applied

UF - No Attendance Records
TR - No Attendance Records                          2           3,190         180     504                                                          $7,318.08

Column Totals                                      89           6,480         357     796       1,346                  0        74          0     $14,800.24             $2,725.20

Total Lunch Overclaim                                                                                                                                                  $17,525.44


Breakfast


UF - Total Claim Exceeds Total Attendance          13            762           58      85                                                          $1,149.30

TR -Free Claim Exceeds Free Attendance              1                                             348                                                                       $410.64

TR - Claim Exceeds Attendance
UF - Breakfasts Claimed on Non-serving Days         3            135            9      15                                                           $202.20

TR - Breakfasts Claimed on Non-serving Days         1             48            3      17                                                            $74.24

UF - Incorrect Claiming Rate Applied
UF #112 and TR #192 - Claim Exceeds Attendance

UF - No Attendance Records
TR - No Attendance Records                          2           2,725         105     302                                                          $3,996.94

Breakfast Column Totals                            20           3,670         175     419        348                                               $5,422.68                $410.64

Total Breakfast Overclaim                                                                                                                                                $5,833.32




Summary Results:                                                                                                                                     Total Excess
                                                           Ineligible Meals Claimed          Reclassified Meals Claimed                            Reimbursement
                                                                                                                                             Ineligible      Reclassified
                                                                          7,633                                             1,420            $14,800.24         $2,725.20
Errors Not Detected by Control Edit              Lunch
Checks
                                                 Break                    4,264                                               348                $5,422.68               $410.64
                                                 -fast

                                                 Total                  11,897                                              1,768            $20,222.92              $3,135.84

                                                                                                                           13,665                                  $23,358.76




   USDA/OIG-Audit No. 27010-31-Hy                                                                                                                                                      44
Exhibit F - Food and Nutrition Service Response to the Draft Report
                                                                      Page 1 of 5




USDA/OIG-Audit No. 27010-31-Hy                                                45
                                 Page 2 of 5




USDA/OIG-Audit No. 27010-31-Hy           46
                                 Page 3 of 5




USDA/OIG-Audit No. 27010-31-Hy           47
                                 Page 4 of 5




USDA/OIG-Audit No. 27010-31-Hy           48
                                 Page 5 of 5




USDA/OIG-Audit No. 27010-31-Hy           49
                                 Attachment
                                 Page 1 of 6




USDA/OIG-Audit No. 27010-31-Hy           50
                                 Page 2 of 6




USDA/OIG-Audit No. 27010-31-Hy           51
                                 Page 3 of 6




USDA/OIG-Audit No. 27010-31-Hy           52
                                 Page 4 of 6




USDA/OIG-Audit No. 27010-31-Hy           53
                                 Page 5 of 6




USDA/OIG-Audit No. 27010-31-Hy           54
                                 Page 6 of 6




USDA/OIG-Audit No. 27010-31-Hy           55
